AMTRAK MADE SIGNIFICANT IMPROVEMENTS IN
 ITS LONG-TERM CAPITAL PLANNING PROCESS

       Federal Railroad Administration
        Report Number: CR-2011-036
        Date Issued: January 27, 2011
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Amtrak Made Significant                                                     Date:    January 27, 2011
           Improvements in its Long-Term Planning Process
           Federal Railroad Administration
           Report Number CR-2011-036

  From:    Mitch Behm                                                                       Reply to
                                                                                            Attn. of:   JA-50
           Assistant Inspector General for Rail, Maritime, &
           Economic Analysis

    To:    Federal Railroad Administrator

           The Passenger Rail Investment and Improvement Act of 2008 (PRIIA)
           re-authorized the National Railroad Passenger Corporation (Amtrak) for the years
           2009 through 2013. 1 Not since the Amtrak Reform and Accountability Act of
           1997 (ARAA) has Amtrak received a multi-year authorization for appropriations
           to cover its capital spending. 2 As a result, the company has had to develop its
           capital budget on a year-to-year basis without knowing how much funding
           Congress would provide. This method of planning has significantly affected
           Amtrak's ability to maintain safe and reliable infrastructure and equipment, and
           increased its capital program's annual costs. Amtrak estimates that the State of
           Good Repair (SOGR) 3 backlog on Amtrak-owned and operated Northeast
           Corridor (NEC) infrastructure alone is approximately $5.2 billion in fiscal year
           2010 dollars. 4 Amtrak also faces the renewal and replacement of an aging
           equipment fleet, safety and security needs, business improvement initiatives, and
           compliance with legal requirements such as accessibility for passengers with
           disabilities.

           Because Amtrak requires significant Federal funds for its capital program, the
           House Appropriations Subcommittee on Transportation, Housing and Urban
           Development, and Related Agencies requested this audit. Our objectives were to
           determine: (1) Amtrak's five-year capital requirements and how they align with the

           1
               P.L. 110-432, October 16, 2008.
           2
               P.L. 105-134, December 2, 1997.
           3
               State of good repair is a condition in which the existing physical assets, both individually and as a system, are (a)
               functioning within their useful lives, and (b) sustained through regular maintenance and replacement programs.
           4
               The Northeast Corridor Infrastructure Master Plan, May 2010.
                                                                                   2


company's business and strategic goals; (2) how Amtrak prioritizes its capital
projects; (3) Amtrak’s capital needs and ability to implement its increased capital
budget as a result of the American Recovery and Reinvestment Act (ARRA); 5 and
(4) how Amtrak evaluates the performance of its capital projects.

RESULTS IN BRIEF
Amtrak has established four long-range planning documents that outline the
company's long-term capital requirements and align with the company's business
and strategic goals. In 2009, after completing a comprehensive evaluation of its
funding and projected ridership, the company implemented a Five-Year Financial
Plan that calls for over $8 billion in capital investments. The company has also
implemented a SOGR plan for the NEC, which estimates the funding required for
eliminating the backlog of deferred investments for the Corridor's infrastructure
and equipment. Both plans were required by PRIIA. In addition, the company has
established long-range plans for its fleet acquisitions, required by the Fiscal Year
2009 Omnibus Appropriations Act, 6 and information technology (IT) needs. The
Fleet Strategy Plan sets timelines for replacing rolling stock through 2040, and
describes possible funding sources for these new acquisitions. The long-range
plan for IT modernization describes required investments and serves as the
blueprint for IT in the Five-Year Financial Plan.

Amtrak prioritizes its capital needs through the use of Decision Lens, a software
package that brings transparency to the process and facilitates collaboration among
groups with different prioritization needs. With project evaluation criteria
developed by Amtrak executives and staff, Decision Lens develops a prioritized
list of capital projects from all departments. Prior to the use of Decision Lens,
Amtrak's capital plans were too heavily weighted in favor of engineering safety
and SOGR projects across all departments. During the initial corporate-wide
rollout of Decision Lens, executives and staff detected problems with the new
process, but Amtrak has made improvements. Minimum funding for engineering
SOGR was removed from the Decision Lens process and given the highest priority
to support the NEC SOGR plan. The remainder of the requested engineering
projects was prioritized with all other departmental projects. As a result, funds are
allocated to projects across departments based on weighted priorities.

Amtrak assessed its capital needs and in a short time-frame reported them in a
capital spending plan for the $1.3 billion in funds it received from ARRA. Per
ARRA's requirements, the company has allocated a large portion of the grant to its
security and life safety programs for projects that will reduce infrastructure

5
    P.L. 111-5, February 17, 2009.
6
    P.L. 111-8, March 11, 2009.
                                                                                                               3


vulnerabilities and enhance incident management, such as fire detection and
suppression systems. As a result, many historically neglected capital projects will
receive significant amounts of ARRA funding. As part of its strategic plan for the
funds, Amtrak has allocated over half—63 percent—of the funds to contracted
projects in order to quickly get the resources needed to move projects along and to
avoid layoffs once the projects are completed. While the capital plan is in place,
Amtrak likely faces challenges in making investments by the mandated February
17, 2011 deadline.

Amtrak developed a measurable performance plan for its capital projects. During
the 2008 planning cycle, Amtrak staff updated the Budget Manual with guidance
on establishing project outcomes and performance measures, and later updated the
Policy Manual with requirements for conducting post-completion project reviews.
Based on this new guidance, Amtrak has made progress in developing capital
project performance metrics. Despite this progress, however, it is too early to
determine the effectiveness of the post-completion review process, as Amtrak still
faces challenges in evaluating capital projects, including difficulties in identifying
metrics for projects that cannot be easily evaluated, and the limited staffing
resources available for thorough evaluations.

To ensure that Amtrak maintains the recent improvements to its long-range capital
planning and effectively spends its ARRA funds, we are making recommendations
to the Federal Railroad Administration (FRA) regarding improvement of its
oversight of Amtrak's capital grants.

BACKGROUND
Amtrak was established by the Federal government and cannot remain solvent or
operate without substantial Federal subsidies. It is not, however, a Federal agency,
but rather a private, for-profit corporation. It receives Federal subsidies, through
annual appropriations, which FRA administers pursuant to operating and capital
funds grant agreements. 7 Amtrak currently operates a rail network of over 21,000
track miles, providing services to 46 states, the District of Columbia, and three
Canadian provinces, primarily using tracks owned by freight railroads. The
company also owns over 600 miles of track, mostly located in the NEC between
Boston, Massachusetts, and Washington, D.C. In 2009, 8 Amtrak served
approximately 27 million passengers. About one-third of its ridership takes trains
in the NEC.



7
    Grant agreements govern the relationship between FRA and Amtrak, detailing a number of provisions that Amtrak
    must meet in order to receive the funding from FRA.
8
    Unless otherwise noted, referenced years are fiscal years.
                                                                                                                4


Despite receiving billions of dollars in Federal funding 9 throughout its history to
cover operating losses and capital expenditures, Amtrak has struggled financially.
In 1997, Congress passed the Taxpayer Relief Act, 10 providing Amtrak with
$2.2 billion for capital expenditures with the goal of enabling the corporation to
make the investments necessary to reduce its reliance on Federal support and meet
its mandate for operational self-sufficiency. Also in 1997, Congress passed
ARAA, authorizing $5.2 billion to cover operating, capital, and debt expenses
through 2002. Despite receiving this significant amount of funding, however,
Amtrak did not achieve self-sufficiency.

In 2001 and 2002, Amtrak experienced a series of financial crises that threatened
to shut down its intercity passenger rail system and many of its commuter rail
systems. In response to these events, Congress instituted new oversight measures
as part of Amtrak’s 2003 appropriations that require the U.S. Department of
Transportation (DOT) to approve Amtrak’s allocation of Federal funding. Prior to
that time, Congress had generally given Amtrak discretion for allocating its
Federal funding, while occasionally designating specific amounts to capital or
operating expenses. These changes have divided appropriated funds into
designated operating and capital expense accounts that FRA monitors on a
monthly basis. Federal grants to these accounts are disbursed quarterly rather than
annually, and Amtrak must submit a detailed business plan, updated as necessary,
for approval by the Secretary of Transportation.

In 2008, Congress passed PRIIA, providing a reauthorization for Amtrak that
included a number of provisions addressing financial reforms. PRIIA authorized
$9.8 billion in funding between 2009 and 2013, with specific amounts allocated to
operating expenses, capital expenditures, and debt expenses. Figure 1 shows the
trend in Amtrak's capital appropriations since 2000. PRIIA also requires Amtrak's
Board of Directors to submit a Five-Year Financial Plan and annual budget to the
Secretary of Transportation and DOT's Office of Inspector General (OIG).
ARRA, passed in February 2009, provided another $1.3 billion to supplement
Amtrak's capital program through February 2011.




9
     Through 2008, Amtrak received $32.1 billion in Federal subsidies for operating and capital expenditures.
10
     P.L. 105-34, August 5, 1997
                                                                                                                                                       5



 Figure 1: Federal Capital Appropriations to Amtrak
 Fiscal Years 2000 through 2011


            1,200

                                                                                                                             Authorized
                                                                                                                                             $1,025
            1,000



                       800                                                                                                         $738
                                                                                                                          $655
     ($ in millions)




                              $571                                                                             $565
                       600
                                        $521      $521      $528
                                                                                $500      $500      $500
                                                                      $465

                       400
                                                                                            Passage of PRIIA
                                                                                            October, 2008
                       200



                        0
                             FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007     FY 2008   FY 2009   FY 2010   FY 2011


     Source: OIG analysis of Federal Appropriations and PRIIA.

Amtrak's financial difficulties have contributed to its significant backlog of
deferred investments. In 2005, the Government Accountability Office (GAO)
reported that Amtrak's annual Federal subsidy of $1.2 billion between 2004 and
2006 was sufficient to keep the company in operation, but not large enough for it
to avoid further deferral of significant maintenance projects. 11 By 2006, Amtrak
had deferred an estimated $6 billion in capital maintenance spending.

AMTRAK'S LONG-TERM FINANCIAL PLANS REFLECT ITS
BUDGET AND STRATEGIC GOALS FOR INFRASTRUCTURE,
FLEET AND INFORMATION TECHNOLOGY

Amtrak now has four long-range financial planning documents in place that
outline the company's capital requirements in line with its budget and strategic
goals for the next 5 years and beyond. In 2009, the company implemented its
Five-Year Financial Plan that calls for over $8 billion in capital investments. It
has also established a SOGR plan for the NEC, which estimates the funding
needed to eliminate the backlog of deferred infrastructure and equipment
investments in the Corridor. Both plans were required by PRIIA. The company

11
     GAO Report, "Amtrak Management: Systemic Problems Require Actions to Improve Efficiency, Effectiveness, and
     Accountability" GAO-06-145, October 4, 2005.
                                                                                                                6


also developed a long-range plan for fleet acquisitions, which was required by the
Fiscal Year 2009 Omnibus Appropriations Act. Finally, the company took the
initiative to develop a plan for determining its IT needs and modernization
requirements.

Amtrak's Five-Year Financial Plan Calls for Over $8 Billion in
Investments in Infrastructure, Fleet Maintenance and Overhaul, and
Information Technology

Amtrak's 2010-2014 Five-Year Financial Plan, dated September 2009, calls for
$8.7 billion 12 in capital investments, with the majority of funding—92.5 percent—
coming from the Federal government. 13 The largest investments fall into three
areas—infrastructure, fleet maintenance and overhaul, 14 and IT—accounting for
$8.4 billion, or 96.2 percent, of the plan's spending (Table 1). These investments
align with business and strategic goals outlined in Amtrak's new strategic plan—
known as the Strategic Guidance—which outlines the company's mission, goals,
and progress criteria (see Exhibit B). The Guidance is consistent with best
practices outlined by GAO.


 Table 1: Amtrak's Capital Spending Plan Fiscal Years 2010
 through 2014 ($ in millions)
 Investment
 Category                  FY 2010        FY 2011        FY 2012         FY 2013        FY 2014         Total
 Infrastructure               $621.2         $930.7        $1,174.7       $1,143.6         $975.2     $4,845.4
 Fleet                         391.0           376.7          813.8          718.6           357.7      2,657.8
 IT                            224.3           239.6          189.9          139.2            70.3        863.3
 Subtotal                   $1,236.6       $1,546.9        $2,178.4       $2,001.5       $1,403.1     $8,366.5
 All Other                       40.0           65.4            79.2           77.1           66.1        327.8

 Total                      $1,276.6       $1,612.3        $2,257.6       $2,078.6       $1,469.3     $8,694.3
Source: OIG analysis of Amtrak data
Note: Columns may not sum due to rounding.

The development of Amtrak's Five-Year Financial Plan required a comprehensive
evaluation of the company’s funding from all sources covering the costs of
operations, capital investments, and principal and interest payments. This process
also required Amtrak to determine: projected ridership levels; the capital funding
12
     This figure does not include $1.3 billion in capital funding provided by ARRA.
13
     The plan calls for more than the full level of authorized Federal funding in each year.
14
     Overhauls extend the useful lives of fleet components, improve equipment, and return or maintain equipment in
     SOGR. They address longer-term equipment needs and involve significant investment in new components and
     systems, such as wheels, trucks, or brakes, and may include interior upgrades such as new carpeting.
                                                                                                                  7


and expenditures required to accommodate predicted ridership levels; and methods
of estimation and significant assumptions. It also required Amtrak to assess its
financial stability. Our November 2009 assessment of the plan found it to be
generally in compliance with PRIIA’s requirements. 15 However, we found two
deficiencies in the plan—a lack of detailed operating expense forecasts, including
information on the cost drivers, and a lack of detailed information on Amtrak's
workforce planning efforts. Amtrak officials acknowledged the deficient
information in these areas, but stated that the capabilities of the company's
financial systems limited reporting. These officials also noted that reporting will
improve in coming years, in large part due to the integration of key operational,
financial, and human resources business processes and the replacement of
outdated financial, work management, and other systems as mandated by PRIIA.

Three Other Financial Plans Reflect Amtrak's Long-Term Investments
in its Northeast Corridor, Fleet Acquisition, and Improvements in
Information Technology

Amtrak has developed a plan for bringing its NEC to SOGR, as required by
PRIIA, 16 This plan serves as the basis for meeting both the long-term needs for
engineering in Amtrak's Five-Year Financial Plan and the annual engineering
budget, and estimates of the funds needed to perform normalized replacement and
eliminate the backlog of deferred investments for NEC's infrastructure and
equipment. Amtrak based this plan on a 2007 report on the states of repair of the
corporation's assets in each of four broad categories—track, electric traction,
communication and signals, and structures. For the 2007 report, Amtrak had
determined quantities, estimated useful life, and amount of inventory already
beyond useful life, and estimated normalized maintenance costs and replacement
costs for each major asset type. In May 2010, the NEC Master Plan Working
Group 17 published a more comprehensive report, which includes SOGR, safety
and mandated programs, and growth requirements for the NEC. The report
estimated Amtrak's costs of deferred investments in infrastructure alone to be
$5.2 billion, and normalized replacement costs between 2009 and 2030 to be
$7.2 billion—estimates that would result in average annual costs of approximately
$700 million. 18

While Amtrak's Five-Year Financial Plan includes approximately $650 million in
annual infrastructure investments—investments that are consistent with
projections in the SOGR report—engineering officials informed us that, in some
15
     DOT-OIG Report, "Fourth Quarter Report on Amtrak’s FY 2009 Operational Reforms Savings and Financial
     Performance and Five–Year Financial Plan Review", Number CC-2009-098, November 19, 2009.
16
     Northeast Corridor State of Good Repair Spend Plan, April 15, 2009.
17
     The group includes representatives of the twelve states that make up the NEC, the District of Columbia, Amtrak,
     FRA, and the eight commuter and three freight railroads operating in the NEC.
18
     Amtrak adjusted the figures in this report for inflation for its NEC SOGR plan.
                                                                                   8


cases, the Five-Year Plan's numbers will not line up with those in the SOGR
Report because the Plan is an evolving document with numbers that fluctuate
based on Amtrak's yearly appropriations. Amtrak has proposed that instead of
annually updating its SOGR plan, as required by PRIIA, it annually update the
master plan to reflect its SOGR needs.

Amtrak has developed a long-range fleet plan, known as the Amtrak Fleet
Strategy, in accordance with the Fiscal Year 2009 Omnibus Appropriations Act.
Published in February 2010, this plan extends through 2040 and expands on the
Five-Year Financial Plan by integrating timelines for vehicle condition, needs, and
replacement with potential financing mechanisms—including direct Federal
appropriations, and Federal and commercial loans—for the acquisition of new
vehicles. The Plan estimates annual costs for its first 5 years at $684 million per
year, and seeks to replace Amtrak's current rolling stock on a continual basis
through 2040.

Under its own initiative, Amtrak has developed a long-range investment plan—
also known as an Enterprise Architecture (EA)—for its IT needs. This plan
describes the investments needed to modernize all primary IT infrastructure and
systems, and serves as a strategic blueprint for guiding IT modernization in the
Five-Year Financial Plan. According to Amtrak officials, a business case has been
developed that justifies each project in the EA, and annual budgeting for these
projects simply requires estimates of labor hours and the costs of other inputs,
such as computer hardware and software. Departments must present a specific
business case in support of any IT project not included in the EA.

FRA will be responsible for reviewing Amtrak's new long-term plans. Amtrak's
2010 grant agreement for capital and debt service includes specific requirements
for FRA to review the company's Five-Year Financial, Fleet, NEC SOGR, and
Strategic plans. However, there is no explicit requirement to review Amtrak's EA.

AMTRAK IMPLEMENTED A CORPORATE DECISION MAKING
PROCESS TO PRIORITIZE ITS CAPITAL NEEDS
In March 2009, Amtrak began using the decision-making software package
Decision Lens to prioritize capital projects for its budget process. Decision Lens is
a software tool suited for decision-making by groups and facilitates collaboration
among groups with different functions. Amtrak had previously used Decision
Lens to select vendors for procurement and to designate projects for ARRA
funding. Although Amtrak experienced problems in the initial roll out of Decision
Lens, officials stated that the program makes capital prioritization more
transparent, and improves the process by calculating priority scores for projects
based upon the corporate goals set out in the Strategic Guidance.
                                                                                     9


Decision Lens differs significantly from Amtrak's previous process. Prior to the
implementation of Decision Lens, the company relied upon a points-based process
to rank and score capital projects. This process weighted Amtrak's capital plans in
favor of engineering SOGR projects due to the prioritizing criteria, such as safety
and security, used to establish project approval. When using Decision Lens,
Amtrak executives established project evaluation criteria and their relative weights
of importance for both new and continuing projects, and loaded them into the
application. Projects were also reviewed by departmental staff with previous
experience in Amtrak's capital programs, referred to as subject matter experts
(SME). The SMEs then used Decision Lens to vote on projects based on a
15 point scale on which a score of 15 indicated that a project best met the criteria,
and a score of 1 indicated that a project did not meet any criteria. With SME
input, and the executive criteria and rankings programmed into Decision Lens,
Amtrak created a prioritized list of capital projects.
During the rollout of Decision Lens, Amtrak executives and SMEs detected
problems with the application and the new process. Because executives provided
their departmental priorities after Decision Lens had developed the prioritized list,
a number of funding decisions had to be included on the list in order to address
high priorities that the Decision Lens ranking process did not recognize. In prior
years, departmental priorities were gathered prior to the development of a ranked
project list. A similar approach may have saved a few steps in the prioritization
process. Moreover, with over 600 projects to prioritize, Amtrak’s capital program
proved to be too large for Decision Lens. SMEs pointed out that the package did
not have the capacity to handle all activities, particularly at the end of the process,
and the system crashed twice on the last day before all SMEs could complete the
voting process.
According to finance department officials, many of the concerns about Decision
Lens were addressed for the 2011 capital budget process. Executives published
their prioritizing criteria before project submissions were made. Because they
make up such a large amount of the capital budget, engineering safety and SOGR
projects were removed from the prioritization process by allocating the
engineering department $350 million before other projects were ranked, thus
freeing up capacity in Decision Lens. An Amtrak official pointed out that by
removing engineering SOGR projects, the process no longer favors those projects
over those of other departments, and instead allocates funds to projects across
departments based on weighted priorities.
According to FRA officials, Amtrak's use of Decision Lens improves the capital
budget prioritization process because the software allows for transparency.
Furthermore, it allows Amtrak's Board and FRA to detect which projects fall
below the funding line, creating opportunities for discussions about funding
priorities.
                                                                                                                     10


AMTRAK HAS A SPENDING PLAN FOR ITS ARRA FUNDING,
BUT WILL LIKELY FACE CHALLENGES IN SPENDING THE
FUNDS EFFECTIVELY
Amtrak has established a spending plan for the $1.3 billion in ARRA funds it has
received, allocating a significant portion to its security and life safety programs as
mandated. The company has modified a number of operational practices,
including allocating more than half—63 percent—of its ARRA funds to contracted
projects in order to quickly get the resources needed to move projects along and to
avoid layoffs once the projects are completed. However, the company has a
mandated deadline of February 17, 2011 for spending all ARRA funds, and
despite its plan, faces challenges, such as making investments by this deadline.

Amtrak Has Established a Capital Spending Plan for Its ARRA
Funding

Amtrak has established a spending plan for its $1.3 billion in ARRA funds.
Amtrak used Decision Lens to prioritize projects according to both corporate goals
and the goals of the Recovery Act, which require the company to commit
$450 million to security and life safety programs and no more than 60 percent of
the remaining $850 million, or $510 million, to projects within the NEC. As a
result, Amtrak can use ARRA funding for capital projects with a history of
neglect, including a number of large bridge and tunnel replacements. Amtrak has
allocated $447.5 million to security and life safety projects, $841.0 million to
other projects, and $5 million to the Amtrak Inspector General (IG). FRA retained
0.05 percent or $6.5 million for administrative costs. Fifty-two percent of the
funds have gone to the NEC and the remainder to projects outside the Corridor.
The security and life safety projects are intended to reduce infrastructure
vulnerabilities and enhance incident management at Amtrak facilities nationwide,
including stations, bridges, tunnels, maintenance facilities, and other buildings.
Enhancements to safety installations include fire detection and suppression
systems and emergency exits from buildings and tunnels. Other funded projects
involve expansion of Positive Train Control 19 safety systems in the NEC.
The company budgeted the vast majority of its ARRA funds (91.5 percent) for
three departments—engineering, police and security, and mechanical. See Table 2
for a breakdown of Amtrak's ARRA funding by department.




19
     Positive Train Control refers to communications technology that will improve railroad safety by significantly
     reducing the probability of collisions between trains, casualties among roadway workers and damage to their
     equipment, and over speed accidents.
                                                                                                 11



 Table 2: Amtrak ARRA Budget by Amtrak Department
                                          Budget
 Department
                                       ($ in millions)             Description of Projects
                                                         Mechanical and Engineering wireless
 Amtrak Technologies                            $24.1    access, employee information system,
                                                         and enterprise data management.
 Contract Administration                         15.0    Wheelchair accessibility improvements
                                                         Infrastructure improvements and
 Engineering                                    846.7    upgrades to bridges, stations, facilities,
                                                         implementation of positive train control.
                                                         Station signs, Passenger Information
 Marketing and Product
                                                   9.3   Display System, Amtrak.com re-launch,
 Management
                                                         train communications.
 Chief Financial Officer                         55.4    Program administration.
                                                         Return cars and locomotives to service,
 Mechanical                                     140.8    construct progressive maintenance
                                                         facilities in FL and CA.
 Procurement                                       1.1   Procurement system improvements (IT).
                                                         Strategic infrastructure protection and
 Police and Security                            196.1
                                                         police equipment modernization.
 Amtrak IG                                       5.0     Amtrak ARRA Oversight.
 FRA                                             6.5     Administrative costs.
 TOTAL                                      $1,300.0
Source: OIG analysis of Amtrak data.

Amtrak Has Modified Certain Operational Practices to Meet Its
February 2011 Deadline, but Timely Completion is Uncertain

ARRA requires all projects and activities funded by the Act to be completed
within 2 years of its enactment, and Amtrak's grant agreement with FRA imposes
a deadline of February 17, 2011, by which Amtrak must spend its ARRA funds.
Not only does the agreement require that measures be taken to complete projects
within 2 years, it also requires Amtrak to apply to FRA for a waiver after proving
that, despite its best efforts, a project that it has initiated, is under construction, and
has been diligently pursued, cannot be completed by the deadline.

To ensure that it spends the funds efficiently and timely, Amtrak planned to
contract out a majority of its projects, and then modified a number of operational
practices. The procurement department required vendor certification of timely
accomplishment for these contracts, and changed language in requests for
proposals and bids. It also held weekly management meetings to address delay
issues. By July 2010, Amtrak had awarded 789 contracts worth $820.4 million, or
63 percent of its total ARRA appropriation. According to Amtrak officials,
reliance on contractors was an important strategy for mitigating the risks of
initiating projects with the one-time funding under ARRA. For example, Amtrak's
information technology department relied on contractors in order to avoid the risk
                                                                                                         12


of having to support employees hired to implement the new projects with
uncertain future funding. Project managers also took extraordinary measures,
including the addition of second and third work shifts on construction projects,
reductions in project scope, and the division of projects into phases. Despite its
actions to ensure that it spends the ARRA funds by the deadline, Amtrak had
actually spent only 31.9 percent of its total grant (Table 3) by the beginning of
July 2010, even though it had drawn down a large portion of its ARRA funding by
June 2010 in anticipation of its funding needs for the busy summer construction
season.

 Table 3: Amtrak ARRA Funds Obligated, Drawn, Spent, and
 Cash on Hand through July 10, 2010 ($ in millions)
                                                                                                Cash on
     ARRA Spending Category                        Obligated         Drawn         Spent
                                                                                                 Hand
 Security and Life Safety                                $447.5       $248.4         $133.4        $115.0
 Non-Security and Life Safety                             841.0        726.2          279.2         447.0
 Economic Stimulus Projects                            $1,288.5       $974.6         $412.6        $562.0
 Amtrak Inspector General                                   5.0          5.0           $0.8           4.2
 ARRA - Total                                          $1,293.5       $979.6         $413.4        $566.2
Source: OIG Analysis of Amtrak Data

It is also not certain that the investments Amtrak has made with ARRA funds are
sound and effective. By May 2010, the company had not bid out or awarded a
number of projects due to concerns over design or because the projects still lacked
agreements with third parties. Amtrak revised its estimates of what it could
realistically achieve by the deadline. In June and July 2010, Amtrak made
requests to its Board of Directors to approve reprogrammings 20 that would shift a
total of $166 million in ARRA funding from the engineering and other
departments to the mechanical department primarily for fleet overhauls, which
could be completed within the prescribed timeframe. Amtrak did not ask for funds
in its 2010 request to Congress to cover these fleet overhauls. Internal documents
state that Amtrak's primary objective for the reprogrammings was completion of
the ARRA capital programs by the February 2011 deadline.

FRA did not have concerns over Amtrak's process for reprogramming of ARRA
funds. FRA officials stated that the company's use of Decision Lens gave the
process transparency, allowing FRA staff to understand the projects that received
the transferred funds. However, the need for the reprogrammings did raise
concerns for FRA. For example, one FRA official expressed concern over the fact
that bridge projects in the NEC were bid well over budget because Amtrak's initial
20
     The ARRA grant agreement allows Amtrak to make revisions or reprogram funds in its approved budget under
     certain circumstances with written approval from FRA.
                                                                                 13


budget estimates did not include either costs to operate on a live railroad, or the
cost of performing the work in 2 years (which actually meant a single construction
season because of the procurement process). This official believed that the
estimates may have actually been budget placeholders because Amtrak did not
originally believe it would receive enough money to fund the projects. In another
example, an FRA official informed us that Amtrak's Police and Security
Department's lack of experience in managing large grants has affected its ability to
spend the money to date. Finally, these officials stated that FRA's goal is to
ensure that Amtrak spends the money in a timely manner and that it reaches
ARRA's goals of job creation and infrastructure investment.

While FRA has not expressed concern over the company's reprogramming of
ARRA funds, Amtrak's IG recently identified a number of risks associated with
the company's ARRA projects. A May 2010 Amtrak IG report identified five out
of nine engineering projects that contained a number of high-risk areas, including
environmental and acquisition risks.       Environmental risks are caused by
unpredictable environmental factors such as soil contamination and timeliness of
environmental approvals, while acquisition risks arise when untimely deliveries of
materials and equipment may prevent the achievement of project deadlines. The
report also notes that the February 2011 deadline has stretched the capabilities of
Amtrak's procurement function, and that projects operate under tight schedules
with few buffers. The report recommends that Amtrak apply to FRA to amend
provisions in the grant agreement that require Amtrak to take these costly
measures.

AMTRAK HAS ESTABLISHED A PROCESS FOR EVALUATING
CAPITAL PROJECT PERFORMANCE, BUT QUESTIONS REMAIN
REGARDING EFFECTIVE IMPLEMENTATION
Amtrak has developed a measurable performance plan to evaluate the outcomes of
its capital projects. To address criticisms by its IG, Amtrak updated its Budget
and Policy manuals and made progress in developing capital project performance
metrics. Despite this progress, however, it is too early to determine the
effectiveness of the post-completion review process. Amtrak still faces challenges
in evaluating capital projects, including difficulties in identifying metrics for
projects that cannot be easily evaluated, and the limited staffing resources
available for thorough evaluations. In addition, FRA's capital grant agreement
does not require any review of Amtrak's new capital project performance
evaluation.
                                                                                                                      14


To address its IG's concerns, Amtrak recently developed guidance for its Budget
and Policy Manuals. In 2007, Amtrak's IG reported that the company's capital
budget submissions did not consistently include strategies for measuring capital
projects' outcomes to determine whether the investments achieved their intended
results. The Amtrak IG recommended that the company develop operational and
financial metrics linked to corporate goals, and that Amtrak conduct these reviews
within 1 year of project completion to assess how well each project's outcomes
were measured and whether the project achieved its intended results.

In 2008, Amtrak included an addendum to its Budget Manual, which required
project submissions to include explanations of intended outcomes and department
plans for verifying these outcomes. Subsequent Budget Manuals required project
justifications to include outcomes and performance measures, and introduced
language stating that the finance department will coordinate with project managers
to evaluate the performance of projects and implementation success. Amtrak's
2008 Policy Manual required project managers to conduct post-completion
reviews, the finance department to audit the reviews on a sample basis, and
reviewers to verify that projects have realized anticipated benefits and were
completed on time and within budget. The December 2009 Policy Manual
included additional guidance 21 requiring project managers and the finance
department to verify that projects have realized anticipated benefits and achieved
their intended objectives based upon performance metrics defined during the
budget process.

By applying this new guidance, Amtrak has made progress in developing capital
project performance metrics. It included outcome metrics for the first time in most
project submissions with its 2008 budget. In our review of the company's capital
budgets for 2008 through 2010, project justifications spanned a spectrum from
broad, qualitative descriptions of project impacts to specific, quantifiable estimates
of costs and expected revenues and performance metrics. For example, in the
2008 budget, the mechanical department's submission for the overhaul of
36 baggage cars included a project justification stating that the work would
improve the units' serviceability and reduce mechanical delays by replacing major
components instead of repairing them. A finance department submission in 2009,
for the automation of credit card acceptance, included a justification describing
specific expenditures and revenues that the project would generate if it were
implemented. Project submissions in the 2010 capital budget were generally tied
to corporate goals and key performance indicators outlined in the Strategic

21
     This version refers to the 2008 manual's section on post-completion reviews, but the section appears in a different
     location in the manual. Although the 2008 and 2009 sections on post-completion reviews focus on different areas of
     review, one on the accountability of resources and the other on measuring project performance, it could be beneficial
     for Amtrak to have all guidance on these reviews incorporated into one section of the Policy manual.
                                                                                                                         15


Guidance—indicating Amtrak's attempt to align its capital program with the
strategic plan and accountability measures.

It is too soon to determine the effectiveness of the new review process. Per the
Policy Manual, Amtrak's IG will periodically audit post-completion reviews, and
officials acknowledged that Amtrak is making progress in addressing the related
recommendations. However, because the process changes have only occurred
over the last year, there is not yet enough quantifiable data for a good
understanding of how well it is working. Amtrak finance officials informed us
that they plan to begin conducting post-project reviews in early 2011.

Amtrak still faces challenges in evaluating capital project performance. Finance
officials described two challenges in particular. The first arises from difficulties in
identifying evaluation metrics for projects that cannot easily be evaluated. For
example, it is difficult to link an engineering project that replaces a certain number
of railroad ties 22 to larger corporate outcomes such as reduction in travel time,
improvements in on-time-performance, and cost savings. The second challenge
stems from the fact that the finance department has limited staffing resources to
perform thorough evaluations. Due to Amtrak's limited staffing, the new guidance
calls for evaluations of only a sample of completed capital projects.

FRA's capital grant agreement does not include specific requirements to review
the performance of Amtrak's capital investments. The 2010 grant agreement for
capital and debt service does require Amtrak to provide a return on investment
calculation for all proposed capital projects, with the exception of SOGR and fleet
overhaul projects. This calculation is used in part to determine which projects get
funded. However, the agreement lacks any explicit requirement for Amtrak to
provide information which would allow FRA to review the company's
performance against expected outcomes for its capital investments. This
information would allow FRA to determine whether or not Amtrak is making
effective and efficient capital investment decisions.

CONCLUSION
Amtrak's long-term capital planning processes have evolved. Most notably,
Amtrak's Five-Year Financial Plan and Decision Lens tool will allow the company
to make adjustments to both its short and long-term capital plans. However, given
the amount of money at stake and the need for sound capital investment decisions,
it is imperative that Amtrak sustain improvements to its long-term capital
planning. ARRA and PRIIA have provided Amtrak with both the funds and

22
     Ties are the portion of the track structure placed under the rails to hold them in place and distribute the weight of the
     rails and rolling stock.
                                                                                 16


opportunity to implement its strategic vision, particularly for its capital program.
However, if Amtrak does not receive the level of Federal funding authorized in
PRIIA, it will not have the resources to carry out its current plans, and its
continuing financial struggle may hamper the company's ability to sustain the
improvements made to its long-term capital planning processes. Enhanced FRA
oversight will be critical to ensure that needed actions are carried out.

RECOMMENDATIONS
To ensure that Amtrak successfully integrates and maintains recent improvements
to its long-term capital planning processes and effectively spends ARRA funds,
we recommend that the FRA Administrator:

   1. Amend the 2009 ARRA grant agreement to make the requirements for
      waiving the project completion deadline less stringent.

   2. Enhance its oversight of Amtrak's capital grant agreement by including
      specific requirements for post-project reviews to evaluate the results of
      capital investments.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of our report to FRA on December 3, 2010 and received their
response on January 11, 2011, which can be found in its entirety in the appendix
of this report. In response to recommendation 1, FRA fully concurred with our
recommendation and amended Amtrak's ARRA grant agreement to better ensure
that ARRA funds are well spent, and not just expended to meet the February 17,
2011 deadline. FRA also provided sufficient documentation to support the actions
taken.     Accordingly, we consider this recommendation closed.              For
recommendation 2, FRA plans to amend Amtrak's fiscal year 2011 capital grant
agreement to require post-project reviews for certain project categories. FRA
provided a target completion date of April 15, 2011. We believe FRA's actions
will enhance its oversight of Amtrak's future use of capital resources from the
Federal government. Accordingly, we consider this recommendation resolved
pending completion of FRA's planned actions.

ACTIONS REQUIRED
Based on the actions taken by FRA and our review of the supporting
documentation provided by the Agency, we consider recommendation 1 closed
subject to follow-up provisions in accordance with Department of Transportation
Order 8000.1C. Based on the information provided by FRA, we consider
                                                                             17


recommendation 2 resolved but open pending completion of FRA's planned
actions.

We appreciate the courtesies and cooperation of FRA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-9970 or Toayoa Aldridge, Program Director, at (202) 366-2081.



cc:   Audit Liaison, OST, M-1
      Audit Liaison, FRA, RAD-43
                                                                                 18



EXHIBIT A. SCOPE AND METHODOLOGY
We prepared this audit in response to a directive in the House Appropriations
Subcommittee on Transportation, Housing and Urban Development, and Related
Agencies committee report accompanying the fiscal year 2008 appropriations
bill. 1 We conducted this performance audit from January 2008 through November
2010 in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To determine Amtrak's five year capital requirements and how they align with its
business and strategic goals, we reviewed Amtrak's 2010-2014 Five-Year
Financial Plan, 2010 Fleet Strategy Plan, IT Enterprise Architecture Plan, NEC
SOGR Plan, and NEC Master Plan, and compared the plans with Amtrak's 2009
Strategic Guidance. We interviewed officials from Amtrak's engineering,
mechanical, finance and information technology (IT) departments to understand
their respective plans and how each department aligned its planning with Amtrak
business and strategic goals.

To determine how Amtrak prioritizes its capital projects among competing needs,
we interviewed engineering, mechanical, and IT department officials to
understand their department-level prioritization processes for capital projects that
are submitted to the finance department. Moreover, we interviewed finance
officials to understand their roles in prioritizing the company's capital needs and
their improvements to the prioritization process using Decision Lens software. We
compared the old prioritization process with the existing Decision Lens process to
document differences in the processes and outcomes.

To determine Amtrak's ability to implement its increased capital budget provided
by ARRA, we reviewed Amtrak's capital appropriations history and ARRA spend
plan, and interviewed finance, engineering, IT, and mechanical department
officials to understand their ability to meet the ARRA deadline and how the
departments prioritized ARRA spending with ongoing projects. We reviewed
documentation on Amtrak's Board of Directors to understand the reprogramming
of ARRA funds to meet the mandated ARRA deadline. Additionally, we
interviewed FRA and Amtrak IG officials to understand their views of Amtrak's
abilities to meet the ARRA mandated deadline.


1
    House Report 110-238 (July 18, 2007)


Exhibit A. Scope and Methodology
                                                                               19


To determine how Amtrak evaluates the performance of capital projects, we
interviewed finance department officials to understand their progress in
performing post-completion reviews of capital projects. We reviewed Amtrak's
capital programming policy and capital budget manuals to document Amtrak's
process for evaluating capital project performance and conducting post-completion
reviews. We also reviewed capital project budget submissions to determine if
submissions included justifications that were tied to corporate goals. Finally, we
met with officials from Amtrak's IG and FRA to understand their views of
Amtrak's new capital project performance reviews.




Exhibit A. Scope and Methodology
                                                                                                20



EXHIBIT B. AMTRAK MISSION, GOALS, AND PROGRESS
CRITERIA

 Amtrak Mission, Goals, and Progress Criteria
 Amtrak Mission:
 To operate intercity passenger service on the existing national network, operate high speed
 services, operate and maintain the Northeast Corridor (NEC), and partner with the states to
 provide the resources and expertise they need to develop rail service nationwide.

 Corporate Goals:
 1. Safer: Operate the safest possible passenger railroad.
 2. Greener: Increase efficiency, reduce emissions, and make better use of resources.
 3. Healthier: Improve the condition, durability, and wholesomeness of every aspect of the
    company.
 4. Improve financial performance: Improve Amtrak's bottom line.
 5. Improve customer service: improve the quality and attractiveness of Amtrak's service to
    passengers.
 6. Meet national needs: help with disaster relief and mobilization efforts, and help advance
    national policies and plans.

 Efficiency Measures:
 1. Cost per Available Seat Mile - cost to move a seat one mile.
 2. Cost Recovery Ratio - proportion of expenses that are covered by revenues.
 3. Passenger Miles per Core Employee - total passenger miles divided by employees in core
     business lines.
 4. Revenue per Available Seat Mile - income produced by moving a seat one mile.

 Effectiveness Measures:
 1. Safety Ratio - number of reportable injuries per 200,000 man-hours of work.
 2. Customer Service Index - survey-generated measure of performance.
 3. Host Railroad Performance - minutes of delay per ten thousand train miles.
 4. On-Time Performance - percentage of trains that arrive at their destination within the
    “threshold of tolerance” for delay.
 5. Ridership Growth - percentage of increase (or decrease) in riders.

Source: Amtrak Strategic Guidance, October 2009




Exhibit B. Amtrak Mission, Goals, and Progress Criteria
                                                                      21




EXHIBIT C. ORGANIZATIONS VISITED OR CONTACTED
Federal Agencies:
Federal Railroad Administration, U.S. Department of Transportation,
Washington, DC


Amtrak:
Amtrak Finance, Information Technology, and Inspector General,
Washington, DC
Amtrak Engineering and Procurement, Philadelphia, PA
Amtrak Mechanical, Wilmington, DE


Host Railroads:
BNSF Railway, Fort Worth, TX
Norfolk Southern, Norfolk, VA
Union Pacific Railroad, Omaha, NE


Other:
Association of American Railroads, Washington, DC




Exhibit C. Organizations Visited or Contacted
                                                          22




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                 Title

  Toayoa Aldridge                      Program Director

  Matt Williams                        Analyst

  Aaron Schwarz                        Analyst

  Susan Neill                          Writer/Editor




Exhibit D. Major Contributors to This Report
                                23



APPENDIX MANAGEMENT COMMENTS




Appendix Management Comment s
                                24




Appendix Management Comment s
